 Department of Health and Human Servces

            OFFICE OF

    INSPECTOR GENERAL.





  ADMINISTRATION FOR NATIVE

AMERICANS: A REVIEW OF THE SEDS

           PROGRAM





          VK'

                 Richard P. Kusserow
                 INSPECfOR GENERA

                           9090
                     OEI-03-
              EXECUTIVE SUMMARY

PUROSE
This report examines (1) the extent to which projects receiving social and economic
development strategies (SEDS) grants from the Administration for Native Americans
(ANA) have met their goals , (2) the adequacy of ANA' s grant monitoring, and (3)
whether SEDS has contributed to the social , economic , and governmental self­
sufciency of Native American communities.

BACKGROUN
The Native American Programs Act of       1974      93- 644, title VIII) authorized a
                                                 (PL.

program of financial and technical assistance to promote social and economic self­
suffciency for " American Indians , Alaskan Natives , Native Hawaiians , and Pacific
Islanders. " In the Administration for Children and Families (ACF), ANA is
responsible for program administration. The ANA developed the SEDS funding
approach in 1981 to allow Native American communities to determine their own
strategy for achieving self-suffciency.

The SEDS grants account for about $25 milion of ANA' s annual $30 million budget.
Funding has remained constant for 10 years. The SEDS grants have three separate
purposes: economic development , governance , and social development.

METHODOLOY
Our review covered fiscal years 1986 through 1988. During this period , ANA awarded
560 SEDS grants totaling $75 millon. Ranging            from $5   000 to $1.2 milion , the
average grant was $134 000. We randomly selected 30 grants from each fiscal year.
These grants funded 259 projects. We evaluated the long- term success of each project
using information obtained from grant folder reviews , grantee intervews (including
site visits), and discussions with ANA officials.

FIINGS
       One- quarter of projects did not meet their goals.

       Although ANA has grant monitoring procedures , compliance with procedures
       was not systematic.

       Progress toward self-sufficiency cannot be determined.

       Grantees view flexibilty as the main strength of SEDS.

       Most grantees approved of ANA' s management of grants.
RECOMMATIONS
The ANA should:

       Follow guidelines to target its grant monitoring to projects with the greatest risk
       of failure.

       Provide grant applicants with information on the results of previous projects.

       Require that each grantee have a clearly delineated strategy for promoting self­
       suffciency.

       Develop standards to determine the adequacy and appropriateness of such
       strategies.

       Review SEDS grant applications to assure that grantee proposals will
       contribute to meeting established strategies and goals.

       Monitor grantee performance according to current guidelines and procedures to
       assure that activities reflect plans and commitments expressed in the grant
       proposal.

COMM
We received comments from ACF and the Assistant Secretary for Planng and
Evaluation (ASPE). The ACF concurred with all except two findings and all but one
recommendation. They non-concurred with our finding concerning the number
successfu projects. However , their non-concurrence focused on the distinction
between the words " project " and " objective. " The ACF disagreed with our findig that
progress toward self-sufficiency cannot be determined. They also disagreed with our
recommendation that ANA should develop standards to measure grantee progress
toward self-sufficiency.

The ASPE generally agreed with our findings and recommendations.

We have addressed ACF' s    concerns about both findings in the body of the report.
continue to believe that ANA should develop standards which measure SEDS grants
contribution to grantee progress toward self-sufficiency. This is consistent with
findigs in an earlier study funded by ASPE.
The full text of comments appears in Appendix E.
                       ....................................................
                                                        ..................
                                                                    . . . . . . ..                                                 .. ..
                     . . . . . . . . . . . . . . . . . . . .. .. ... .. .. .. .. .. .. . .. .. .. .. .. .. . .. .. .. .. .. .. ... .     .. .... .... . . . . . ..
                                                                                                                                       . .




                              TABLE OF CONTENTS

        EXCU SUMY

        INODUCTON .

        FIINGS                                                                                                  ...................5

        RECOMMATIONS

        ENNO'f

        APPENIX A; Budget Comparon

        APPENIX B: Percentage of Fundig by Gratee Typ                                                                                                         B-1


        APPENIX C:        Ditnbution by                   Project Typ ........................... C­


        APPENIX D: Analis of Project Not Meetig Goal. . . . . . . . . . . . . . . . . .. D­

        APPENIX E: Agency Comments
............................
                            INTRODUCTION


PUROSE
This report examines (1) the extent to which projects receiving social and economic
development strategies (SEDS) grants from the Administration for Native Americans
(ANA) have achieved their goals , (2) the adequacy of ANA grant monitoring activities
and (3) whether SEDS funding has contributed to the social , economic , and
governmental self-suffciency of Native American communities.

BACKGROUN
ANA' Lelatie Mandte

In 1973 the then Department of Health , Education and Welfare established the Offce
of Native American Programs (ONAP). The Native American Programs Act of 1974
(PL.  93- 644 , title VIII) authorized ONAP to provide financial and technical assistance
to promote the goal of social and economic self-sufficiency for " American Indians
Alaskan Natives , Native Hawaiians , and Pacific Islanders.

In a 1977 departmental reorganization ,    ONAP became the Administration for Native
Americans (ANA) in the Offce of Human Development Servces (OHDS). The ANA
is now part of the recently formed Administration for Children and Familes (ACF).
Prior to 1981 , ANA primariy funded administrative support and social servces for
tribes and Native American organizations. It sought to meet its legislative mandate
through coordinating and evaluating programs servng Native Americans and
administering grants.

Developme of the SEDS Prgram

       an Offce of Inspector General (OIG) review 1 suggested improvements to
In 1978 ,
help ANA fulfll its legislative mandate. The ANA then worked with tribal and other
Native American leaders to develop a new funding approach. They based their
approach on three program goals:

       economic development: to foster the development of stable , diversified local
       economies and economic activities that provide jobs , promote economic well­
       being, and reduce dependency on welfare servces by starting or attracting new
       businesses;

       governance: to develop or strengthen tribal governments and Native American
       institutions and local leadership to assure local control and decision-making over
       all resources 3 such as funding to help the tribe in securing Federal recognition or
       the development of tax codes and land use ordinances; and
     soal development: to support local access to and coordination of programs and
     servces that safeguard the health and well-being of a community and its people.
     For example , these grants may develop employment skills ,        address housing needs
     or reduce teenage pregnancy.



Since 1981 ,ANA has used SEDS as the primary channel to carr out its legislative
mandate. The    SEDS approach supports tribal governments and Native American
organizations in developing and implementing community-based , long- term
governance , social and economic development strategies.

The SEDS Grat Awad Proce

The ANA periodically      solicits grant applications through the               Outside
                                                                    Federal Regiter.

panels of individual readers knowledgeable about Native American affairs review grant
applications. Based on wrtten criteria , these panels rate proposals to decide their
lielihood of success. Applicants must state specific , measurable goals that are
consistent with community needs and long-range social and economic strategies. The
ANA staff make the final award determinations. Each grant consists of one or more
objectives. The ANA awards approximately one grant for every three applications
received.

Th   AN        Fung Leels
The ANA' s funding has changed little over the last 10 years. It has remained constant
at slightly over 1 percent of total Federal Native American funding (See Appendi A).
The ANA' s funding reached its peak at $41 milion in Fiscal Year 1976. Funding
subsequently declined to a low of $27. 7 milion in Fiscal Year 1986. Since then
ANA' s budget has remained constant at approximately $30 milion per year. The
SEDS grants account for approximately $25 milion of ANA' s annual budget.

Prr Revs of ANA         Acties

In addition to the 1978    OIG study, ANA was reviewed three times during the 1980s.
Maxus, Inc. , under OHDS contract , issued a report in December 1983 that found
SEDS was returning $3 to $43 for each dollar invested. The review also found SEDS
was making progress in overcoming serious social problems.

In 1983 ,   the Assistant Secretary for Planning and Evaluation (ASPE) contracted with
CSR Inc. to evaluate the implementation of the SEDS program. The study found that
most grantees were achieving at least one project goal and recommended that ANA
identify broad indicators of self-sufficiency.

A September 1989 OIG report concluded that a material internal control weakness
existed in the monitoring of OHDS discretionary grants. s The weakness pertained to
insuffcient documentation of monitoring activities.
METHODOLOGY

Sample Seletin


Our review covered Fiscal Years 1986 through 1988. There were 560 SEDS grants
totaling $75. 1 milion awarded during this period. The grants ranged from $5 000 to
$1.2 millon , with an average of $134 000. For the distribution of funding by grantee
tye , see Appendi B.
We randomly selected 30 grants from each fiscal year for a total of 90 grants. The 90
grants consisted of 349 objectives. For the purpose of our analysis , we divided the 349
objectives into two categories.

    One category contained 123 objectives. We grouped objectives linked by a
    common purpose into one project. The 123 objectives formed 33 projects.
    grant awarded to establish a Native American Arts Center ilustrates this process.
    The grant had three objectives: development of a business plan; acquisition of
    location , supplies and commencement of operations; and implementation of a
    review and evaluation plan. These three objectives represented one project , the
    establishment of an arts center.

    A second category included 226 objectives. Each of these objectives represented a
    distinct project. There were 226 projects in this category.

The projects from both categories totaled 259. Our analysis and findings are based on
these 259 projects (See Appendix C).

Grants awarded in Fiscal Years 1986- 88 were chosen to assure that the projects were
fiished at the time of our   review. This enabled us to assess the grants ' final results
and any ongoing impact they had on   self-sufficiency. Three years of data allowed for
an objective review if any abnormalities appeared in a particular year. Two grants
were stil ongoing and incomplete at the time of our review.

Rev Pres
We reviewed wrtten grant monitoring policies and procedures. Through review of the
offcial grant administration folders , we identified project goals and determined
compliance with monitoring procedures. We reviewed ANA literature to identify a
definition of self-sufficiency and standards to measure it.

We conducted structured intervews with grantees , including 23 in person and 66 by
phone (one grantee had disbanded and could not be contacted). These intervews
provided us with information on project achievements , ANA' s monitoring, grantee self­
sufciency, and suggestions for improvements in the grant process. We also reviewed
documentation supplied by grantees to support their responses.
In order to assess the   impact of SEDS grants , we determined whether project goals
had been met. We were able to examine the long-term accomplishments of projects
after grant funds ended. For example , one grant was awarded to raise a crop that
would earn enough money to raise more crops the next year and eventually become a
self-supporting farming operation. Although the grantee raised and sold a crop, the
profit was less than half what had been projected and the project ended after one
year. Therefore ,   we concluded that the project goal had not been met.

By dividing grants into individual projects we were able to acknowledge the
achievements of some projects even if others under the same grant were not
successful. In one case , a grantee was awarded funding to (1) develop codes and
ordinances for tribal administration and development , (2) operate two power plants
(3) open a factory, (4) establish a five-store shopping center , and (5) develop two
support industries for fuel production. The goal of the first project was met but those
of the remainng four were not. The fact that most of this grant s projects did not
meet their goals does not reduce or negate the contribution of the one that did.

Other projects consisted of several objectives with a common purpose. We first
established a project goal. We then based our finding on the achievement of that
goal. We could have deemed a project unsuccessful even if a majority of project
objectives were completed. For example , one grantee received funding for a project
to develop a cannery. The grantee met two of the project s three objectives
developing a business plan and training tribe members in new processing technques.
However , the overall project goal was not met because the cannery was not in
operation.

We reviewed 83 of the 90 grant casefolders. Two grant folders were unavailable
because the grants were stil active at the time of our review. Five other grant folders
were misplaced during a move and were not available. We were able to learn the
nature of the projects but not ANA' s monitoring activities for these five. We spoke to
all of the groups for whom we had no grant folders. We had a folder for the one
group which had ceased functioning and could not be contacted.

We did not review the grant application process. Any information concerning the
application process arose from our conversations with grantees or our analysis of
project achievement.
                                                  ."'"'' .         .--                                        -- --.                            ..




                                                 FINDINGS

ONE-QUARTE OF PROJECf DID NOT                                                                ME THIR                                                 GOAl.
Six-two of 259 projects (24 percent) did not meet the grantees                                                                                       ' s    ated goals (See
Appendi D for a detailed              analysis of these projects).                                                         The number of projects that did
not meet their goals could rise to 87 (34 percent) projects if another 25 of the 259
projects currently delayed in litigation or in the reguatory process do not meet their
goals. Such projects involved water rights , land claims , and Federal recognition cases.
These delays were beyond the grantees ' control and were not included in our
calculation of project success.



The chart below depicts goal achievement by project tye:


                                                  Results by Project Type

                                                                             eN = 259)

                                           of p.oj ect:s

                               120


                               100    n."... ..----n_" --n. ---.-.. n......... n."........ h - hn - un --unn".......... h- - --n."....... '''''--nn n" n"......





                                                  ""..h_ h---. - -. n.-. -................... Uh. ..h n. ....."........... Un Oo.. un" n".... .....h. .---n. n"




                                                             "hh - -   --- n.". -.....................   h-            --.-........... .--u --. noon"........ ----n_.-......





                                                 Unsuccessfu I                                                                  Total
                                                 Proj ects*                                                                     PrOjects


. This   doe not include the 25 projects delayed by litigation or the regulatory proces.
Bus venes accoun for mot projects not meetig th goals.
Business ventures account for over two- thirds   of the unsuccessful projects. Fort- four
of 97 (45 percent) Native American business ventures failed. According to the Small
Business Administration (SBA), the estimated rate of failure for projects that received
SBA loans between 1986 and 1988 is between 15 and 20 percent. This information is
intended as a point of reference , not for direct comparison with ANA grantees
business failure rate.

One example of a business venture failure involved a 3-year grant to expand a feed
production company and produce a unique tye of feed. The company went out of
business after 3 years due to changes in technology which the tribe could not match.
The tribe made some attempts to use the equipment. However, it currently sits in
storage.

Lack of    plag and managem was cied as the mot commn cause of proble
Respondents described problems that prevented them from meeting their goals. We
categoried these responses to learn the most common reasons projects were not
successfu. Lack of planning and management was the reason almost half (30 of 62)
of projects did not meet their goals.   For example ,   some grantees mentioned
inadequate market research and premature expansion as problems.

Other projects did not meet their goals due to economic problems , project complexity,
and changes in the tribal government.

Problems simiar to those mentioned above were cited in a 1983 study funded by
ASPE. The report noted diffculties with administrative skills , organizational structure
and social and economic conditions as factors which impeded the implementation of
the SEDS program. The study also found that a comprehensive planning system could
faciltate the successful implementation of SEDS.


Grantees mentioned a variety of other problems as impediments to project success.
Since there was no common link , we grouped these into a miscellaneous category.
Two cases ilustrate this. One grantee felt racism toward Native Americans prevented
his tribe from getting a foothold in the marketplace. Another grantee cited union
problems as the cause for failure.

The major reasons given as to why project goals were not met are shown in the
following chart and in Appendix D.
                                                               -''''''''.'''''''''''.'.''''''''''''.''''.
                                                                                          - - -... -. - -             ''''.    .---




                                                     Reasons Goals Were Not Met.



                                                               noon n..u" un.."........ ..n............... - -                     un... n".......... '--.---.......



                                     b.  25'
                                                                                                                              "_u h-n........"""'. '--h_n.__....




                                     o.
                                     I 20
                                                               "....-n- " - n- -                       n.".. un."................. Uh-. hn........... un....--.




                                     f 10




                                               Inadequlte            Bid                                    Too           CItI_ln                 "'''0.
                                                   PI Inning       Ecano,..,                        Campi..                    a""t.
                                                   Ind "'OL





*N = 62 (This doe not include the 25 projects delayed by litigation or the regulatory proces.

ALTHOUGH ANA HA                                GRA MONIORIG PROCEDUR, COMPLICE
WI PROCDUR                                 WAS NOT SYSTEMATIC.

Gra monirig predes                                   are decred in                                          two diferen                     do.
The                                            (HDSM) sets forth policies and
         OHDS Grants Administration Staff Manual

procedures covering all grants in our sample. The HDSM has been periodically
updated since it was published in 1978. This document was the priary gude in our
analysis of ANA compliance with monitoring procedures.

The                         establishes ANA guidelines within the HDSM
         ANA Operations Guide

requirements. First published in August 1988                       combined existing                          , the           Operations Guide 


reguations into one document. The                                      covered only 7
                                                                             provisions of the                                         Operations Guide 


of the 90 grants in our sample because 83 grants were awarded prior to August 1988.

The ANA expanded Part IV of the Guide in April                      Monitoring                                                1990 into a separate

Guide.This addressed the material internal control weakness in OHDS  grant
monitorig cited by the OIG.            Operations Guide produced in 1991
                                                         A revised

consolidates the 
              Operations and Monitoring Guides.

Th       AN do not meet aU of the grant monitorig reqem.
Although ANA is responsible for many grant monitoring activities , we reviewed the
three areas where ANA focuses its monitoring efforts: (1) progress reports , (2) site
visits , and (3) certification of completion of program requirements.

According to the HDSM, site visits should be targeted toward grantees with highest
risk of failure. Other monitoring activities are the same for all grantees.
           Progress report   submiion and review was sporadic.
Grantees did not submit almost half of all required progress reports and final
evaluation reports. We also found no documentation that program specialists had
reviewed submitted progress reports. This corroborates the previously noted internal
control weakness finding in the September 1989 OIG report.

Reguations concerning progress report submission were recently revised. The HDSM
requies program officials to review all progress reports , but does not specify the form
of review. Since August 1988 , ANA has required quarterly Program Specialist
Reports. This provision applies to only seven grants in our sample. None of the
seven files contained program specialist reviews. In December 1989 , ANA developed
a standardized Grantee Status Review Form. They took this action in response to the
OIG finding on OHDS grant monitoring.

           Site viits were inequent.

There was little documentation concerning site visits to grantees in our sample. The
information provided by ANA revealed that they had visited 10 of the 90 grantees (11
percent) in our sample. However , we received site visit trip reports for only two
grantees. Trip reports for three other grantees in our sample showed that ANA
visited them to review different grants than those we had studied. There were no trip
reports for the remainng five grantees. Consequently, we were unable to determine
whether ANA visited them to monitor the grants in our review.

We contacted grantees for more information concerning site visits. According to
grantees , program office representatives had visited 27 of the 90 project sites (30
percent) over the 3 years of our review.



The ANA was unable to provide specific written criteria for choosing grantees for site
visits. Annual site visits by Program Specialists are " strongly encouraged" in the
HDSM to review the grantees ' capabilties and practices. Priority should be given to
 high risk" grantees , grantees having known problems , and new grantees.

According to ANA officials , budget constraints have reduced travel funds in recent
years. In its comments on the draft report , ANA indicated that it intends to monitor
 100 percent of a grantee base of 248 by the end of Fiscal Year 1993.



Prgrm Specilits    did not follow grant closeout   proedes.
Thirt- four of the 83 grant folders (41 percent) reviewed did not contain the required
certification of completion of program requirements. At the end of the grant period
the ANA Program Specialist is to complete a certification of completion of program
requirements. This assures that the grantee has met all program requirements of the
grant.
                                                            , "




We fowu     no diect connctin between grant moniorig and project suces.
For the projects we reviewed , we found no connection between grant monitorig and
project success. Grantees who received more monitoring did not have a much higher
rate of success than grantees who received little monitoring. We focused our review
on three monitorig activities: progress reports , site visits , and certification of
completion of program requirements.

Revised reguations concerning progress report review, phone contact , and site visit
documentation were not applicable at the time of our review.

PROGRE TOWAR SEL-SUFICIENCY CANOT BE                              DETE.
The impact of SEDS grants on grantees ' progress toward self-sufficiency cannot be
measured.

Even though the 1988 amendments to the Native American Programs Act require the
development and publication of general standards for evaluation of program and
project effectiveness , we found no such standards. Furthermore , we found no
indicators , through document review , discussions with ANA offcials , or information
provided by grantees , which could be used to measure the extent to which individual
SEDS grants are contributing to grantee self-suffciency. The impact of SEDS grants
on self-sufciency cannot be measured without such standards.

Although our review found that three-quarters of projects met their goals , no
standards exist which would enable ANA to equate successful projects with grantee
progress toward self-suffciency.

Lack of standards for the SEDS program is not a new issue. The ASPE raised the
same concern over measuring progress in a report it funded in 1983. That report
states As the (SEDS) approach develops , there is a need to identify indicators of self­
     , li


suffciency. . . Unless steps are taken to develop some uniform definitions and
measurable indicators of self-suffciency, it wil not be possible to conduct an impact
evaluation of SEDS. "6 This concern has stil not been addressed.

In its comments on the draft report , ACF noted that there are ways to measure
grantee progress toward self-sufficiency. According to ACF progress is what
(grantees) are accomplishing. " However , as noted above , ANA has no wrtten
standards or methods to systematically measure progress toward self-sufficiency.

Examples of possible standards include reduced levels of dependence on Federal
support , increased employment , increased levels of education , higher average incomes
lower povert rates , the development of economic plans , and increased tribal
revenues.
Such standards could be produced through a joint ANA- Native American effort. The
ASPE' s earlier recommendations corroborate the feasibilty of this approach.

Over one- th of grntees   di not have a strateg for   achig selfsu.
Discussions with grantees revealed that a significant number are not pursuig a long-
range self-sufciency strategy. Fort percent (36 of 90) said they did not have any
long-range self-suffciency strategy at the time of their grant award. Few grantees
even mentioned self-suffciency as a benefit of the SEDS program.

In its response to the draft report , ACF noted that grantees are required to have

     Strategies that enable them to get to the level of development at which a
    Native American (community) can control and internally generate resources to
    provide for the needs of its members and meet its own short and long-range
    social and economic goal which is self-sufficiency.

Aspects of these long-range strategies which support and justif proposed projects are
to be included in the grant application. However, we did not review grant applications
and cannot say whether such strategies were addressed.

GRA VIW FlIL                         AS TH      MA STGTH OF             SEDS.

Grantees saw SEDS' abilty to respond to their dissimilar needs as its greatest
strength. More than one- quarter of the grantees intervewed mentioned the broad
scope of projects that could be funded by ANA as a strong point of the program.
Ths allows these grantees to pursue developmental activities not funded by any other
agency.

Two examples ilustrate the divergent nature of SEDS grants. One grantee used a
year grant to promote tourism , increasing revenues by $150 000. With its grant
another tribe expanded its packaging industry. It now generates an annual income of
$260 000 and teaches job skills to tribe members. It was also able to purchase
remodel , and resell three homes to low- income Native American familes. The tribe
placed three families in these homes and provided construction training to six Native
Americans. Both of these efforts have been a long- term success.

Several mentioned that other funding agencies dictate the use of their funds , whereas
ANA allows grantees the flexibilty to determine their own needs.
MOS     GRA APPROVED OF ANA'                    MAAGEME OF GRA.
Seventy of the 90 grantees (78 percent) had no problems with the way ANA managed
their grants. Eighteen of the 70 grantees noted that ANA was very helpful in
providing assistance when needed and they characterized their relationship with ANA
as good. However, 26 of 90 grantees noted that the grant process could be improved
if there was more direct contact with ANA through either technical assistance or on-
site monitoring.

Suggestions for technical assistance focused on training for grant wrting and ANA'
post-award requirements. Grantees wanted more site visits to give program specialists
a better understanding of their circumstances. For those grantees visited , most had
positive comments and strongly urged future visits. Some grantees suggested that
ANA provide them with information on the results of other grantees ' projects. This
would enable them to model proposals on successful projects and would prevent
grantees from duplicating unsuccessful projects.
Twenty- two grantees appreciated the personal contact they had with ANA. According
to these respondents , they received personal attention from ANA, whereas with larger
agencies they tend to get lost in the bureaucracy.

Note: We shared the full list of grantee suggestions with ANA. Neither grantees nor
individuals were identified on this list.
                   RECOMMENDA TIONS

Our respondents believe that SEDS can be an effective tool in promoting Native
American self-sufficiency, in spite of its limited funding.

To improve the project achievement rate , the ANA should:

    Follow gudelies to taget its  grt     monitorig to projec with the greatest   rik of
    faure. Grants for business ventures should be watched closely since these
    projects are the least likely to meet their goals.

    Provde   grt applicats with inormation on the results of prevous projec. A
    summary of project outcomes could be included in the application package.

To further their role in helping grantees become more self-sufficient , ANA should:

    Requie that each grantee have a clearly delieated strategy   for   promotig self­
    sufciency.
    Develop stadads to determe the adequacy and appropriatenes of such
    strtegies.
    Revew SEDS grant applications to assure that grantee proposals will contribute
    to meeting established strategies and goals.

    Monitor grtee performance according to current guidelines and procedures to
    assure that activities reflect plans and commitments expressed in the grant
    proposal.

SUMY OF AGENCY COMM AN OIG REPONSE
Admtin for Chilen and Famil (ACF)
The ACF concurred with all except two findings and all but one recommendation.
They did not agree that one- quarter of projects did not meet their goals and that
progress toward self-sufficiency cannot be determined. They also disagreed with our
recommendation that ANA should develop standards to measure grantee progress
toward self-suffciency.

The ACF non-concurred with our finding concerning the number of successful
projects. However , this non-concurrence focused on the distinction between the words
 project " and " objective. We addressed their concerns about terminology in the body
of the report.

Concerning our finding on the frequency of site visits , ACF asked that we change the
number of trip reports received from 14 to 50. The ANA provided us with a list of
grantees visited from Fiscal Year 1987 through 1990 and trip reports documenting
visits to these grantees.

Our review of ANA' s list revealed that 10 of the 90 grantees in our sample had been
visited. However , we received site visit trip reports for only two of these. Trip reports
for three other grantees in our sample showed that ANA visited them to review
different grants than those we had studied. There was no documentation of site visits
to the five remainig grantees. Consequently, we were unable to determine whether
ANA visited them to monitor the grants in our review.

The ACF disagreed with our finding that progress toward self-suffciency cannot be
determined. However, our review did not reveal standards to measure the impact of
SEDS grants on grantees ' progress toward self-sufficiency. This is true despite 1988
amendments to the Native American Programs Act requiring such standards.

The ACF also disagreed with our statement that over one- third of grantees did not
have a strategy for achieving self-sufficiency. According to ACF, the grant application
requies grantees to relate proposed projects to relevant aspects of their long-range
development strategies. However, a significant number of grantees revealed that they
do not have long-range strategies for pursuing self-suffciency.

The ACF questioned our recommendation concerning the development of standards
to measure grantees ' progress toward self-sufficiency. They believe that locally
determined standards can be used instead of uniform national standards. We agree
that the basis for determining the success of each grantee s efforts should be its own
strategy for promoting self-sufficiency. However, without standards , ACF cannot
determine the adequacy of such strategies. Examples of possible standards include
reduced levels of dependence on Federal support , increased employment , increased
levels of education , higher average incomes , lower povert rates , the development of
economic plans , and increased tribal revenues. We have modified our
recommendation to reflect this approach.

We recognize the steps ACF has taken to improve the administration of the SEDS
program , despite reduced resources. We hope that ACF will use this report as a
constructive tool to further enhance the condition of Native Americans.

Astant Secretary for Planning and Evaluatin     (ASPE)

The ASPE generally concurred with our findings and recommendations. They believe
this report should be useful in improving ANA' s programs. They suggested that
standards specifically focus on the impact of SEDS grants on self-sufficiency.
The ASPE questioned the inclusion of small business failure data from the Small
Business Administration (SBA). The ANA suggested that we look at this data. It       is

included as a general point of reference , not for direct comparison with ANA
grantees ' business failure rate.

The ASPE also stressed the need for increased technical assistance , as a means to
increase grantee success rate. We agree with the value of increased technical
assistance and point out its importance to grantees in the body of the report.

The fu text of comments appears in Appendix E.
             , p.




                                                   ENDNOTES

1. Department of Health , Education , and Welfare Review of Implementation of
     Native American Programs Act of        Offce of Human Development Services
                                                               1974 -





         340.
     (1978), Audit Control Number 14- 81300.

2. U. S. General Servces Administration 1990 Catalog of Federal Domestic Assistance


3. Department              of Health and Human Servces Commitment to Self- Suffciency:
     Social and Economic Development Strategies of Native American Communities
     (1987), p. 8.

4. Ibid.            8..

5. Department     of Health and Human Services Awarding and Monitoring
     Discretionary Grants Office of Human Development Servces (1983), Audit
     Control Number 12- 89- 00142. Included in this review were grants and cooperative
     agreements made under the OHDS Coordinated Discretionary Funds Program
     (CDP). Our inspection concerns SEDS grants , not CDP grants. The ANA follows
     the same procedures for both tyes of grants.
6.   Assistant Secretary for Planning and Evaluation (ASPE),   A Short Term Evaluation
     of the Initial Implementation of the Social and Economic Development Strategies of
     The Administration for Native Americans 1983 , Contract Number HS- 1oo- 82- oo28
     p. IV.



7. Ibid. ,     p.30.
                                   APPENDIX A


          BUDGET COMPAR                     I SON - ANA VS. OVERALL FEDERAL

           NA T I VE AMER I CAN FUND I NG                                 FY 1975 - 1990

                                       C DOLLAR AMOUNTS I N THOUSANDS)



   FISCAL YEAR                    ANA             OVERAll FEDERAL                   PERCENT AGE


          1975                  $32, 000                         105 373

          1976                          000                      756 276

          1977                          000                      386 626

          1978                    33, 000                        200, 639                1 5


          1979                         , 100                     579 483

          1980                    33, 800                        572, 698

          1981                          800                      555 189

          1982                          000                      246 669

          1983                          000                      340 603


          1984                          000                      255 189


          1985                          000                      268 218


          1986                          742                      254 299


          1987                          989                      315 028


          1988                          679                      421 937



          1989                          975                      409 186


          1990                            711                    850 120                 1.1


SOURCE:   Budget Views and Estimates            for    Fiscal Year 1991     for
              Indian Programs Under the               urlsdlctlon of the Senate Select
             Committee on Indian Affa Irs ,             March 1990 , p. 59.
                                    APPENDIX 

                  PERCEAGE OF FUING BY GRAE TYE

The SEDS program funds four groups:

(1)	   Federally recognized tribes , Alaskans , and Native Americans served through
       consortia arrangements;

(2)	   Non-federally recognized tribes , urban groups , and rural groups;

(3)	   Native Hawaiians; and

(4)	   Other special grantees or organizations representing Native Americans not
       included in these first three groups.

The chart below ilustrates the distribution of funds (figures are in percentages) by
grantee for Fiscal Years 1986         - 1988:




                                       Dist	    ibution of Funding


                                            by Giantee Type





           Fede   a I T     i bes
                     61 .
                                                                          Na t i
                                                                         Ame   i can
                                                                      Qigan i zat ions
                                                                               13.

       Non- Fedeia I T       i bes	                           Nat i ve Hawa i i ans

                    21.
                             APPENDIX
                       DISTUTON BY PROJECf TYE
The 259 projects in our sample are divided into nine tyes of projects:

Ecnomic Deelopment Project:
      Business ventures :   97 projects (37 percent).   Examples: sale of tribal crafts
      the operation of a fishery.


      Economic planning :    28 projects (11 percent).   Example: conducting     a

      feasibilty study into the expansion of the tribal print shop.


Goernance Project:

      Natural resource management : 39 projects (15 percent). Examples:
      conducting land use studies , helping in water rights claims.

      Government : 32 projects (12 percent). Examples: deciding the best form of
      tribal government , setting up a tribal court system.

      Codes/Ordinances : 24 projects (9 percent). Laws and reguations that govern
      tribes or Native American organizations.

      Federal Recognition : 15 projects (6 percent). During this process , the tribe
      acquires rights and responsibilties of a separate nation whose government
      recognized by the U. S. government.

Soal Development     Project:

      Job training and placement : 15 projects (6 percent). Examples: providing
      training to develop marketable skils , establishing an employment servce.

      Housing : six projects (2 percent). Examples: building low income housing,
      developing options to conventional mortgages.

      Environmental protection : three projects (1 percent). Examples: developing a
      plan to remove hazardous waste on tribal grounds , agreeing to protect wildlife.

Note: Percentages   total 99 due to rounding. The common denominator for all
      computations is 259.




                                          C - 1

                                     APPENDIX D

               ANALYSIS OF PROJECTS NOT MEETING GOAL

                     L Economic             Development             Business Ventures        (44)

Sample

No.   Description of Project/Reason Goal Was Not Met (Reason Category)


      Develop a winter tourism industryrrryg to resolve                                 land isues    (plang and
      management).

      Develop a community dock facility/Lgalliabilty problems (plang and
      management).

      Develop (fishing) cannery enterpriselProblem fidig a company to ru the
      caery lanning and management).
      Develop fishing industry/Resistace from communty to Natie                                      America
      (millaneous).
      Establish a self-sustaining tribal arts enterprise/Lsing money due to
      overstag (plang and management).

      Market gift basketsffe manufacter who supplied baskets went out of
      busines (plang              and management).

      Develop a new invention - "jet-a-boat" propulsion device/Lkig for capita
      (plang and management).
      Create a subsidiary for- profit corporationlPut on hold due to change in
      governent (change in tnbal governent).
      Establish a Native American for- profit contractorlProject abandoned when it
      felt it wa not attable (plang and management).

      Clear land ,   plant and raise crops for expected resale of                          $150 000IRan     for onl
                                        lease the land Afected by
      one year with saes of $60 00. Cuentl                                                                  drought
      and equipment vadam. Alo had problems with tuover in tnbal
      governent (micellaneous).
      Start a tribal business (undisclosed nature )/Ran out                             of tie,   wi tr   to set
      without ANA funds (plang and management).




                                                           D-1
Increase annual tribal revenues by $250 000 through Regional Fisheries
Development Program/Eanded too quickl, curently in debt and behid in
taes (plang and management).
Develop a business around tribal campgroundlProblem in land acquiition.
Busines has yet to develop (plang and management).

Start lumber sawmil business      (40 employees )/Could not   obta fiancig
(plang and management).
Set up furniture manufacturing company on reservation/        Cantr
                                                              school on
resIVtion wa dicontiued, school was to have evolved into busines
(p1 ann g and management).

Establish birchbark basket project/Iabilty to market,       litte hope for futue
saes (plang      and management)

Create another 75 jobs in an industrial plantlPlant opened eight month late.
Orgial hied      55 ,few sti employed. Demand for product has declied           due to
changes in the   industr. No longer makg money (bad economy).


Increase level of production and number of employees at doll cottage
industry/Could not manufacte a product at a cost to make a profit (plang
and management).

Exand aquaculture       project/90 percent of fih died,   no profits exped   for 5­
yea (plang and management).
Establish a parts assembly workshop train and employ five/Workshop unable to
get any contrct, now closed down (bad economy).

Exand aquaculture       business/Sti being developed,     seekig prite   fuds
(plang and management).
Establish mini-mall/Could not get additional fudig         (plang and
management).

Establish commercial canning operation/Water lies not large enough to handle
commercial  cag    operation (plang and management).

Establish ethanol production facilitylFederal subsidy expired 199. Without
subsidy, would operate at a loss (plang and management).

Operate hydroelectric installation at two sites/Study showed silt from rier
would daage the turbines , project abandoned (plang and management).



                                     D - 2

Develop a marketing center for Pueblo crafts/Marketig center wa not
establihed followig delays which included the de obligation of par of the
projec' fudig (micellaneous).

Establish a joint venture to operate sand and gravel businesstrnbe wa not
prepared to fiance or manage the operation (plang and management).

Produce graphite composition parts for aerospace industrylBuses operated
for 3 year with 10-15 employees, no longer operatig due to lack of revenue.
Too smal to compete for contract (bad economy).

Establish cut and sew operation for Defense Department/ Busines     never
establihed reasons unown (micellaneous).

Generate $400 000 in annual sales from ice cream franchiselBusines losing
money due to lack of road trafc and slow growth of area (bad economy).

Establish " denturism " lab/Lb project ended due to lack of space in buidig
(plang     and management).

Establish convenience storelPlan for convenience store delayed by tnbal
elecons (change in tnbal governent).

Establish training track for horsestrraig trck not developed due to lack of
inestor interest (plang and management).
Establish manufacturing plant on tribal landtrwaed by unon problems and
economic factors (micellaneous).

Establish a plastics plant with neighboring city and a private companylDo not
have the inastrctre in place , objecte too ambitious. Used money to
support tnOO (too complex).



Establish joint oil and gas business with private drillng company and a local
bank/o not have the inastrctre in place, objece too ambitious. Use
money to support tnbe (too complex).

Establish a mortgage company/ Mortgage company not establihed,      no investors
(plang and management).
Establish a profitable sign companylBusines operated for 3-4 year, then went
out of business (micellaneous).

Establish a non- profit co-op to market Native American goods/Dntiued
(micellaneous).



                                  D-3
Develop fisheries resources , provide four jobsrrermated projec due to loss of
market for product and economic distress (bad economy).

Create trading company with China/Unstable relationship with Chese
governent (too complex).
Establish graphite manufacturing enterpriselProject has been put on hold (too
complex).

Establish profitable convenience store/No measurble retu (bad ecnomy).

Manufacture container components/Eployed 25-30 peple at one tie, now
defuct (micellaneous).
           L Economic           Development         Economic Planning (3)

Develop a lO-year management plan for tribe s restaurant and hotel/Not yet
develope (plang and management).
Attract business to industrial building/id not            succ due to remotenes of
area (plang and management).

Develop and utilze data base for business opportunitieslData bas created but
notutid   due to a turnover in tnbal governent (change in tnbal
governent).
               IL Governnce 
                 Resoure Management (5)

Provide training to tribal communities on how to conduct land
transfersrrrag wa not underten (micellaneous).
Negotiate settlement to land claimlDid not begi due              to a digreement over
which pares   should parcipate (micellaneous).

Negotiate settlement to land claim/Grantee no longer representig th tnbe
(millaneous).
Establish legal title to water rights/Grantee did some           preliar work, now
handled by another attorney (micellaneous).

Exend water and sewer servcelEP A unable to provide funding (plang and
management).




                                               D - 4

                        II    Governnce                 Govern (4)
Set up tribal courts in five villages/ltial                    effort abandoned (too complex).
Establish Tribal Enterprise BoardlDefuct a dministrtion                           tued over   (change
in tnbal governent).

Establish an Economic Development AuthoritylDefuct fudig subsuentl
withdrwn (plang and management).
Develop staff through management training/Sta has left (millaneous).

                  II    Governnce                  Cod/Ordinnces (2)

Establish tribal court to enforce regulations concerning the takig of marine
mammals/Not able to establih, ran out of money (plang and management).

Develop zoning ordinance/No ordinance developed (millaneous).

                 II   Governnce                    Federal Recognn (1)

Obtain Federal recognitionrrnbe is now defuct                              proc dicontiued
(millaneous).
                III Socl             Development              Jobs Training (2)

Place 30 residents in jobs/Not completed due to slowdown in ecnomy (bad
ecnomy).
Employ six youths through youth cooperative which will operate concessions at
sumer drama project/No longer operatig, cuentl lookig for fudig
(plang and management).
         III Socl      Development                  Envionmntal Prtectin
                                                                                   (1)

Serve as legal consultant to ensure that the Native American exemption from
the general moratorium on taking marine mammals remains in place/Gratee
did some  preliar     work, now handled by another attorney (millaneous).




                                                   D - 5

APPENDIX 





 AGENCY COMMNT





      E -

 --..
 =::.                                         " "                   ~~~
                                                                     ..
                                                                    //' CL".   -1 	
                                                                                       ?--
                                                                                                                  ., Y) ..
                       DEFARTMENT OF HEALTP &. HUSI.AN SERVICES 	                .-x
                                                                                                                  (E- 2 J

                                                                       ADMINISTRATION FOR CHILDREN AND FAMILIE
                                                                        ffice of the Assistant Secretary. SUite   600
               .:-=D                   39l	                            370 !.Enfant P'omenaae, S.
                                                                       Vasn1ngron. JC. :0447



                                 Richard P. Kusserow

                                 Inspector General

                                 oep.artme  of Health and Human Services
           FROM:                  !r

                                 Assistan S	 ecretary
                                       for Children and Families

           SUBJECT:	            Response to the Office of Inspector General Draft

                                 Report: "Administration for Native Americans: A

                                Review of the SEDS Program, " OEI-03-90-00390


           Thank you  for the opportunity to review and comment on your draft
           report entitled: "Administration for Native Americans: A Review
           of the SEDS Program.     The report contains five major findings
           and six recommendations. Following are our general comments   on
           the report, our responses to the findings and recommendations

           and our technical comments on specific parts of the report. To

           supplement our response we have attached a discussion paper,
           developed by ANA staff, on the fundamental policy and program

           bases employed by ANA when it funds Native American communities

           to carry out its legislative mandate.

           General Comments

           The Report contains some important and interesting discussions

           about the social and economic development strategies employed by

           American Indian Tribes, Alaska Native Village governments, and

           other Native American organizations, however it has some

           structural flaws that should be corrected to preserve the
           integrity of the discussions.  There are also some basic study
           conclusions with which we disagree and terminology that should be

           clarif ied.


           The terms " project,    grant " and " objective" are used
           inconsistently throughout the report and create confusion for the
           reader. We believe that clarification of the terms is critical
           to a complete response, therefore, we suggest that the following
           def ini tions be added to the report:

                               A " grant" is a reward of financial assistance in -::-,e
                                form of money, or property in lieu of money, by the
                                Federal Government to an eligible recipient.


=::G­



 .:/IG
=== .3EC
        SENT
                                                                     (E-3)




Page 2   - Richard P. Kusserow
           A " project"is the identified activity funded by a
           grant which carries out the purposes of the authorizing
            legislation.
          Each project has one or more " objectives" to be
           achieved. For  the projects sampled in this study, the
          number of obj ecti ves per proj ect ranged from 1 to 32.
OIG Findinq

ONE- QUARTER OF PROJECTS DID NOT MEET THEIR OBJECTIVES.

ACF Response
We do not concur with this finding. The statements in this
finding on page 4 refer to each project objective as a " project,
resulting in 264 projects instead of 90 projects. We recommend
that the phrase: "264 projects" in this finding be changed to
"264 objectives.   We further suggest that this change be made
throughout the report.
OIG Findinq


THE ANA HAS GRAT MONITORING PROCEDURES.    HOWEVER, COMPLIANCE
WITH PROCEDURES WAS NOT SYSTEMTIC.

     Progress report submission and review was    sporadic.
ACF Response
We concur with this finding. It should be noted that this OIG
finding applied to OHDS-wide, not just ANA. During the period
covered by this review (1986-1988) ANA Program Specialists kept
their notes on grantees' progress in working  files.  In 1989, a
system was established that transmits the notes to the official
files.   Further, in April 1990 ANA instituted a series of
enhancements of procedures and systems to assure that all ANA
support off ice, and grantee requirements are met on a timely
basis:
           ANA now holds periodic working meetings with the
           support office charged with fiscal and administrative
           oversight of ANA grantees to assure all reports are
           received and placed in the official   files.
           A system for tracking all grantee reports transmitted
           to the support office for the official files and
           documenting their receipt in ANA working   files.
           A computerized procedure to track all grantee report
           due dates and to follow up on missing or incomplete
           reports.
                                                                     (E-4 )




Page 3   - Richard P. Kusserow
           Introduction of an early warning system enabling
           program staff, working with their assigned grantees,      to
           routinely identify significant problems or issues
           including compliance with grant requirements.
other corrective actions taken by ACF since this OIG review to

improve grant monitoring are as follows:

           The Office of Management Services developed a "Grant
           Monitoring statement" for use by project officers to
           ensure that program progress reviews were made of
           performance reports and that the results of such
           reviews were documented in writing. A IIproject Officer
           certification" form was also developed to be used for
           all continuation awards and grant    closeouts.
                                                         These
           documents were sent to all Central and Regional Office
           staff by transmittal memorandum signed by the Director
           of Management services , dated May 1, 1990.
OIG Findina

           site visits were   infrequent.
ACF ResDonse

We concur with this finding. ACF strongly agrees that annual
site visits should be made. We also agree that priority should
be given to "high risk" grantees, grantees with known problems,
and new grantees. However, this can only be accomplished if
travel funds and staff are made    available.In the last six- seven
years, travel funds have been severely curtailed for the entire
agency. The general criteria for site visits are in the Grants
Administration Manual. ANA has gone further than this with
addi tional guidance for managers and staff.
The Report is silent on a couple of very important factors in
this regard--how the staffing level and travel funds affect ANA'
on-site monitoring capacity. The number of ANA staff is almost
half what it was in FY  80-82. Grant loads per persons are
substantial and additional tasks and requirements continue to
accrue as staff cuts also continue. To not take this into
consideration in an analysis of the program diminishes the
validity of the findings.
Finally, two statements under this finding should be    corrected:
     In the discussion on trip reports provided by ANA, (page 7
     para. 1) "14 grantees II should be changedto "50 grantees.
                                                                  ( E- 5 J



?age 4 - Richard P. Kusserow

      In para. '*, the statement: " They
                                       intend to visit each
      gran ee at least once every 3 years. II should be corrected to
      read as follows: "ANA will have monitored 100% of a grantee
      base of 248 by the end of fiscal year 1993.
OIG ?indinq


             Program Specialists did not follow grant closeout

             procedures.
ACF Response
We concur with this     finding.
                              FOllow-up to obtain certifications
by the Grants Management staff has not always been successful.

Oftentimes the project officer was no longer employed by ANA.

ANA agrees that closeout procedures must be instituted for all

grants that have been completed. There is a specified time

period after a grant is over for a numer of things to occur or
be completed, including audits.
OIG Findinq


             We found no direct connection between grant monitoring

             and proj ect success.


ACF Response
We concur with this    finding.Revised ANA and OMS procedures for
documenting receipt of grantee progress reports and their review
telephone contacts, and si te visits , are now in place to
alleviate this deficiency.

OIG Findinq

PROGRESS TOWAR SELF-SUFFICIENCY CANOT BE DETERINED
             Although ANA has defined self-sufficiency, the

             definition is not realistic given the size and scope of

             the SEDS program.

ACF Response
We do not concur with this finding. The ANA def ini tion of self­
suff iciency is not based on the size and scope of the ANA
program, but rather on what the attainment of it should be for
  ati ve Americans (and parenthetically for States , counties, and
municipali ties.    To limit or constrict the def ini tion of social
and economic self- sufficiency of Native Americans to the budget
limi tations of one Federal program would be shortsighted.
                            ...
                                                                     (E- 6 J


?age 5 - Richard P. Kusserow

 he riA definition of self-sufficiency is the goal that A

 romotes and which Native American entities work toward. All
the examples in the Report of what grantees are accomplishing
Hi th ANA grants show progress toward self-suff iciency.

On the one hand the study infers that grantee accomplishments

such as jobs, businesses, the development of community social,
economic and governance infrastructures and other very important
basic developmental accomplishments are not ascertainable as

progress toward self-sufficiency, and on the other it

categorically states that      SEDS projects may be too
insignificant to have a maj or impact on self- sufficiency. II This
raises questions about the analysis bases, the structure of the

study design and the OIG measures for determining progress and

signif icance. The study is silent on these issues.
For ANA to expect that one-to-three year projects, averaging
$134, 000 , could achieve total social and economic self-
sufficiency for Native Americans would imply that it does not
have a realistic programmatic and Native American knowledge base.
OIG Findinq


          Over one-third of grantees did not have a strategy       for
          achieving self-sufficiency.
ACF Response
 e do not concur with this  finding.   The ANA Program
Announcements and application documents are clear about the
locally-determined SEDS strategies under the ANA social, economic
and governance goals. ANA does not request or require a long-
range " self-sufficiency strategy, " but rather those social and
economic development strategies that enable them to get to the

level of development at which a Native American can control and
internally generate resources to provide for the needs of    its
 embers and meet its own short and long range social and economic
goal which is " self-sufficiency. II To the extent that there is a
long range SEDS strategy, we concur that it should be part of the
application.
                                                              (E-7 J


Page 6 - Richard P. Kusserow

OIG Findinq

GRATEES VIEW FLEXIBILITY AS THE MAIN STRENGTH OF SEDS.
ACF ResDonse

We concur with this finding. The statements and examples in this
section present an excellent portrayal of social and economic
self-sufficiency for Native Americans. This flexibility, which
allows ANA grantees to pursue developmental activities not funded
elsewhere by any other agency, is a strength of the SEDS program.
OIG Findinq

GRATEES APPRECIATED PERSONAL CONTACT WITH ANA
ACF ReSDonse

We concur with this     finding.
OIG Recommendation
To improve the proj ect achievementrate, the ANA should
follow guidelines to target grant monitoring projects with the
greatest risk of failure. Grants for business ventures should be
watched closely since these projects are the least likely to meet
their obj   ecti ves.
ACF ReSDonse
We concur with this recommendation. It should be noted in the
report that the review covered the period of 1986-1988; since
that time, procedures have been instituted to ensure that grants
are being monitored properly.
OIG Recommendation
To improve the project achievement rate, the ANA should provide
grant applicants with information on the results of previous
projects. A sumary of project outcomes could be included in the
application package.

ACF ReSDonse

We concur with this recommendation. ANA has plans to make
successful project information available to grant applicants in
the near future. The idea to put this information in the ANA
application kits is a good one.
                                                                      (E-8 J



Page 7 - Richard P. Kusserow

OIG Recommendation
To further their role in helping grantees become more self-

sufficient, ANA should develop standards which measure overall
grantee progress toward self-sufficiency.
ACF ReSDonse
We do not concur with this recommendation. The implication is

that merely setting standards for social and economic self­
suff iciency is the way to measure grantee progress. ANA is a
competitive grant program. In any given year, only about a third
of the eligible applicants successfully compete for funding.
This conclusion is also an assumption that standards for social
and economic self-sufficiency should be based upon a uniform set
of Federal guidelines.

ANA does not agree with the statement on page 8, para.
"wi thout any standards, the success of the SEDS program cannot be
determined. There are other measures that can be and are used
to make this assessment. For this universe, the progress is what
they are accomplishing.

It should be emphasized that a policy based on locally-determined
standards of self-sufficiency is not at all a policy of "
standards. .. The applicant for an ANA grant must rigorously
define its project goals and objectives if it hopes to be funded
in ANA' s highly competi          ti ve process.
                       Federallv-imDosed standards for self

And while there are no 


sUfficiency--nor should there be given the sovereign status and

enormous breath of diversity of these communities--it must be

understood that the ANA grant competition process is predicated

on funding only proposed proj ects with carefully planned, fully
documented and locally-determined strategies.

OIG Recommendation
ANA should require that potential grantees have a clearly
delineated strategy for promoting self- sufficiency.
ACF ReSDonse
l'le concur with           this recommendation. The entire ANA grant
competi tion process, which was not reviewed by the OIG           Team, is
predicated on funding only projects with            a carefully planned,
fully documented, and locally determined            strategy (action) for
social, economic or governance self-sufficiency.
                                                                 (E-9 J



 age 8 - Richard P. Kusserow

The ANA commissioner makes the final funding determination after
reviewing an independent assessment from program staff. He
places great emphasis on the degree to which the applicant has
developed a strategy which moves the community toward greater
self-sufficiency.
OIG Recommendation
The ANA should monitor grantee performance in accordance with

current guidelines and procedures to assure that acti vi ties
reflect objectives described in the grant proposal.

ACF Response
We concur with this recommendation. It should be noted in the
report that the review covered fiscal years 1986 through 1988;
since that time, procedures have been instituted to ensure that
grants are being monitored properly.
Technical Comments


    In the discussion on page 8 about the definition for self-
    sufficiency it is  stated: "Defined in this way, SEDS
    projects may be too insignificant to have a major impact on
    self-sufficiency. " The Report does not state what a major
    impact would be or how project "insignificance" would be
    determined.
    In the chart on page  4: "Environment & Housing" should     be
    changed to "Environmental protection" in order to be
    consistent with usage of the term on pages C-2 and D-6.
    On page 5 under the discussion on tbe reasons objectives
    were not met: "inadequate planning and management" . is used
    in the text and "lack of planning and management" is used in
    the chart. The term " inadequate" is not synonymous with the
    term "lack of. We further suggest that " planning" and
     management" not be lumped together, as they are two
    distinct functions.  Planning usually occurs prior to a
    grant award and management occurs during the project period.
    In the chart on page 5 and on page D-1 (sample no. 24) the
    term " unstable" Tribal government is  used. Even if used by
    the interviewees, the use of this term for Tribes
    inappropriate in the sense that all governments, including
    the U. S. Government change administrations after elections
    at specified times, as do the Tribes and Native American
    Boards of Directors. Problems are experienced and projects
                                                               (E-10 J




Page 9 - Richard P. Kusserow

     are canceled or put on hold at all levels--Federal , state
     and local when there is a change of administration, but they
     are not called " unstable. Therefore, we recommend that the
     insensitive use of this term for Tribes be deleted from
     pages 5 and D-1 of the report.
     The first sentence on page 8 should be corrected to ref lect
     the ANA mission: " . . . to promote the goal of social and
     economic self-sufficiency.
We look forward to the opportunity to discuss this report with

you. If I  may be of further assistance, please do not hesitate
to contact me.



Attachment:
  ANA Discussion Paper

                                                                          / ' ::/ ?­                '-   ':.

                                                                                                                    / y:"i.­

                                                                                      jAc-u
          DEPARTMENT OF HEALTH & HUMAN SERVICES                                                                      Offce of the Secetary

(1-                                                                                 fC"              e/                            C. '0201
                                                                                                                                             (E-ll)



  -:0 :          rtichard P. Kusserow
                                               :lUG 2 a   :991 IG


                                                                           PDIG ?:t;
                                                                           DIG-AS
                                                                           DIG-EX
                 Inspector General                                         DIG-Or
  ??OH:          Assistant Secretary for                                   AIG-MP

                                                                           OGC/IG
                 Planning and Evaluation                                   EX SEC 


                                                                                                                     'f I '2
  SUBJECT:       Comments on "Administration forDATR                         trat         SE
                                                                                               ve
                                                                                                               L-
                                                                                                                           ans
                 Review of the SEDS Program"                        t3'




  This memorandum is to provide ASPE comments on the IG report

  entitled "Administration on Native Americans (ANA): Review of
  "che SEDS Program.   Generally, I believe that the findings should
  be useful in improving ANA 1 S programs, but I do have a number
  comments:
           Given that this inspection deals expressly with the SEDS
           program, and that SEDS funding is only a small part of
           federal funding for Native Americans, the recommendations
           relating to self sufficiency obj ectives should be targeted
           specifically to the SEDS proj ects.. For example, the third
           and fourth recommendation should be revised to read as
           follows:
                "Develop obj ective standards which help measure the
                contribution of the SEDS grant to grantee progress in
                achieving self- sufficiency.
                Require that potential grantees clearly delineate how
                the SEDS grant will promote long-term increased tribal
                self-sufficiency. " 

           Given the rate and type of project failure, the IG should

           consider recommending that ANA use feasibility or capacity
           building grants that include the provision of technical

           assistance as a precursor to multi- year development grants.
           In 1983, ASPE conducted a short-term evaluation of the SEDS
           program under task order contract with CSR, Inc. The CSR

           study examined many of the same issues as the OIG inspection
           and their recommendations also deal with grantees in

           developing measurable and sound strategies to achieve self
           sufficiency.  Judging by the nature of SEDS proj ects,
           seems that technical assistance should focus on economic and
           housing development. A copy of this study' s executive
           summary is attached. A full copy of the report is available

           through our Policy Information Center (PIC).
                                                                   ( E- 12 J


? age     - Richard P. Xusserow


        On page 4 of the report, a comparison is made between the

        Native American business venture failure rates and failure
         ates for programs funded by the Small Business
        Administrative (SEA). While interesting, it is unclear
        ,vhether this is an appropriate comparison. SEDS failure
        rates may be attributable to undercapitalization and the
        lack of continuation of funding after a three year grant
        period.   They may also be attributable to lack of community
        resources and readily available markets. This finding may
        warrant further analysis or explanation.
        There is an inherent assumption made regarding grant
        monitoring--that increased monitoring will lead to increased
        project success. As a matter of federal responsibility, all
        grants should be monitored. However, increased monitoring
        may not lead to increased proj ect success, rather provision
        of technical assistance might increase their chances.
   you have any question concerning this memorandum, please     call
   (245-1858) or Bob RaYmond on my staff (245-7316).




Attachment
